LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

February 1, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE 20-222: GOLDMAN SACHS GROUP, INC., ET AL. V. ARKANSAS TEACHER
RETIREMENT SYSTEM, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of Counsel for Amici Curiae Financial
Economists, on February 1, 2021, I caused service to be made pursuant to Rule 29 on
the following counsel for the Petitioners and Respondents:
PETITIONERS:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton &
Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
202-223-7300
kshanmugam@paulweiss.com

RESPONDENTS:
Thomas C. Goldstein
Goldstein & Russell, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
202-362-0636
tgoldstein@goldsteinrussell.com

This service was effected by depositing three copies of the Brief of Amici Curiae
Financial Economists in an official “first class mail” receptacle of the United States
Post Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 1st day of February 2021.

